No. 20-843
In the

Supreme Court of the United States
NEW YORK STATE RIFLE
& PISTOL ASSOCIATION, INC., et al.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL
CAPACITY AS SUPERINTENDENT
OF THE NEW YORK STATE POLICE, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Second Circuit

BRIEF OF J. MICHAEL LUTTIG, PETER
KEISLER, CARTER PHILLIPS AND STUART
GERSON, ET AL., AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS
Nancy A. Temple
K atten & Temple, Llp
209 South Lasalle Street,
Suite 950
Chicago, Illinois 60604

Richard D. Bernstein, Esq.
Counsel of Record
1875 k street, nw
Washington, DC 20006
(202) 303-1000
rbernsteinlaw@gmail.com

Counsel for Amici Curiae
September 13, 2021
307451

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY
OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

HISTORICAL BOUNDARIES INHERE
IN THE SECOND AMENDMENT’S
RIGHT TO “BEAR ARMS” . . . . . . . . . . . . . . . . . 5
A. As the Second Amendment Allows, New
York’s Laws Impose Limits on Carrying
Loaded Guns Outside the Home. . . . . . . . . . 6
B. This Court Should Not Reset the
Historical Boundaries Embodied in the
Second Amendment Based Exclusively
on the Purpose of Self-Defense Because
Those Boundaries Are the Product
of the Historical and Traditional
Balance Between Self-Defense and
Public Safety.  . . . . . . . . . . . . . . . . . . . . . . . . . 7

ii
Table of Contents
Page
II. T H E M A N Y F O U N D I N G E R A
STATU TES PROV IDE THE BEST
HISTORICAL SUPPORT POSSIBLE FOR
LEGISLATIVE LIMITS ON PUBLIC
CARRY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
A. Each of Three Categories of Founding
Era Statutes Shows That Legislatures
Regulated the Carrying of Loaded Guns
in Most Public Places . . . . . . . . . . . . . . . . . . 11
B. Scattered and Selected 19th-Century
Authorities and Commentary Cannot
Change the Scope of the Right to
Carry Guns in Public . . . . . . . . . . . . . . . . . .  17
III. P E T I T I O N E R S W O U L D H AV E
THIS COURT USURP THE
CONSTITUTIONAL ROLE OF THE
LEGISLATURES . . . . . . . . . . . . . . . . . . . . . . . . 19
A. Restricting Loaded Guns in Public
Places Is a Vital, Historically-Rooted,
Legislative Option for Minimizing
Gun Violence on America’s Streets
and in Public Places . . . . . . . . . . . . . . . . . . . 19

iii
Table of Contents
Page
B. The Second Amendment Interpretation
Urged by Petitioners Would Either
Invalidate the Multiple-Location
Restrictions On Public-Places Carry
In Dozens of States Or Require
Decades of Case-By-Case, LocationBy-Location Judicial Balancing . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Bliss v. Commonwealth,
12 Ky. 90 (1822) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17, 18
Bush v. Gore,
531 U.S. 98 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
District of Columbia v. Heller,
544 U.S. 570 (2008) . . . . . . . . . . . . . . . . . . . . . . . passim
Heller v. District of Columbia,
670 F.3d 1244 (D.C. Cir. 2011) . . . . . . . . . . . . . . passim
Janus v. American Federation of State,
County, & Mun. Employees, Council 31,
138 S. Ct. 2448 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . 16
Kanter v. Barr,
919 F.3d 437 (7th Cir. 2019)  . . . . . . . . . . . . . . .  2, 11, 14
Lakewood v. Plain Dealer Publishing Co.,
486 U.S. 750 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
McDonald v. City of Chicago,
561 U.S. 742 (2010)  . . . . . . . . . . . . . . . . . . . . 7, 10, 17, 19
New York State Rifle & Pistol Ass’n, Inc. v.
City of New York,
140 S. Ct. 1525 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . 16

v
Cited Authorities
Page
Obergefell v. Hodges,
576 U.S. 644 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Pruneyard Shopping Center v. Robbins,
447 U.S. 74 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Rodriguez v. United States,
480 U.S. 522 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Robertson v. Baldwin,
165 U.S. 275 (1897)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Rucho v. Common Cause,
139 S. Ct. 2484 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . 30
Terminiello v. Chicago,
337 U.S. 1 (1949)  . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
United States v. Rodriguez,
480 U.S. 522 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
U.S. Term Limits, Inc. v. Thornton
514 U.S. 779 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Washington v. Glucksberg,
521 U.S. 702 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Young v. Hawaii,
992 F.3d 765 (9th Cir. 2021) . . . . . . . . . . . . . . . . . . . . 18

vi
Cited Authorities
Page
Statutes
U.S. Const. Amend. I . . . . . . . . . . . . . . . . . . . . . . . . . 16, 30
U.S. Const. Amend. II . . . . . . . . . . . . . . . . . . . . . . . passim
40 U.S.C. § 5102(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
40 U.S.C. § 5104(e)(1)(A)(i) . . . . . . . . . . . . . . . . . . . . . . . . 21
49 U.S.C. § 46505 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
1686 N.J. Laws 289 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
1692 Mass. Laws No. 6 . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
1699 N.H. Laws 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
1786 Va. Laws 33, ch. 21 . . . . . . . . . . . . . . . . . . . . . . . . . . 12
1792 N.C. Laws 60, ch. 3  . . . . . . . . . . . . . . . . . . . . . . . . . 12
1795 Mass. Acts 436, ch. 2 . . . . . . . . . . . . . . . . . . . . . . . . 12
1801 Tenn. 259, ch. 22 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
D.C. Code § 7-2509.07  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
D.C. Code § 22-4504 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

vii
Cited Authorities
Page
D.C. Code § 22-4504.1  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Mo. Rev. Stat. 571.107.1 . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Utah Code § 76-10-502 . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Utah Code § 76-10-505(1)(b) . . . . . . . . . . . . . . . . . . . . . . 27
Other Authorities
“After the ballots are counted: Conspiracies, political
violence and American exceptionalism, Findings
from the January 2021 American Perspectives
Survey,” Daniel A. Cox (Feb. 11, 2011)  . . . . . . . . . . 24
“Gaetz: Second A mendment about wag ing
‘armed rebellion’ if necessary,” New York Post
(May 27, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
“Handguns, crowbars, Tasers and tomahawk axes:
Dozens of Capitol rioters wielded ‘deadly or
dangerous’ weapons, prosecutors say,” CBS News
(May 27, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
“History of School Shootings in the United
States,” available at https://www.k12academics.
com /sho ol- sho ot i ng s / h i st or y- scho olshootings-united-states  . . . . . . . . . . . . . . . . . . . . . . . . 9

viii
Cited Authorities
Page
“ I n s ide t he Capit ol R iot : A n Exc lu s i ve
Video Investigation,” New York Times
(June 30, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
“Leave your guns at home, Washington police
wa r n pro -T r ump rally-goers,” Reuters
(Jan. 4, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
A. Scalia & B. Garner, Reading Law 18 (2012)  . . . . . . . 8
Armed Assembly: Guns, Demonstrations, and
Political Violence (August 2021) . . . . . . . . . . . . . 20, 23
Collected Works of James Wilson, Vol. 2, Ch. IV . . . . . 13
Deputy Attorney General (June 25, 2021),
https://www.justice.gov/opa/press-release/
file/1406331/download . . . . . . . . . . . . . . . . . . . . . . . . . 24
Giffords Law Center to Prevent Gun Violence,
https://giffords.org/lawcenter/gun-laws/policyareas/guns-in-public/location-restrictions/)  . . . . . . 27
Somnez, F., “Rep. Madison Cawthorn falsely
suggests elections are ‘rigged’, says there will
be ‘bloodshed’ if system continues on its path,
Washington Post (Aug. 30, 2021)  . . . . . . . . . . . . . . . 23
St. George Tucker, Blackstone’s Commentaries
app’x 19 (Wiliam Young Birch & Abraham
Small, eds. 1803)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

1
INTEREST OF AMICI CURIAE
Amici include J. Michael Luttig, Peter Keisler, Carter
Phillips, Stuart Gerson, and others listed in Appendix A.1
Amici speak only for themselves personally, and not for
any other entity or person.
Amici have an interest in preserving our historical,
traditional, and constitutional system of governance
regarding the Second Amendment’s right to bear arms
in public. As history and tradition demonstrate beyond
peradventure, legislatures have, since long before the
founding and continuously thereafter up to the present
day, decided how to strike the delicate balance between
the Second Amendment’s twin concerns for self-defense
and public safety in assessing the permissible restrictions
on the public carry of loaded guns. There is no more
constitutionally persuasive example of this than is evident
in the founding era statutory restrictions on the carry of
loaded guns in public places (“public-places carry”). This
brief will assist the Court by demonstrating historical,
textualist, and structural reasons why the Court should
affirm.
INTRODUCTION AND SUMMARY
OF ARGUMENT
In 1897, this Court said that it had already long been
“well-recognized” that “the right of the people to keep and
1. All parties consented to the filing of this brief. No counsel
for any party authored this brief in whole or in part, and no person
other than amici made a monetary contribution to its preparation
or submission.

2
bear arms (art. 2 [of the Bill of Rights]) is not infringed
by laws prohibiting the carrying of concealed weapons.”
Robertson v. Baldwin, 165 U.S. 275, 281-82 (1897).
This Court repeated the same in District of Columbia
v. Heller, 544 U.S. 570, 626 (2008) (“Heller I”). Among
others, then-Judge Kavanaugh agreed in his dissent in
Heller v. District of Columbia, 670 F.3d 1244, 1278 (D.C.
Cir. 2011) (“Heller II”). Despite this, petitioners now
invite this Court to create a new right to carry loaded
guns “whenever and wherever” the need for self-defense
may arise. Pet. Br. at 29-30. The Court should reject
petitioners’ invitation.
Text, history, and tradition – without resort to any
judicial balancing – show that a constitutional right to bear
arms outside the home, in public and in public places, has
never been unrestricted and indeed, has historically been
restricted in many public places.
“The best historical support for . . . a legislative
power to” restrict gun possession in a particular way are
“founding-era laws explicitly imposing” such restrictions.
Kanter v. Barr, 919 F.3d 437, 454 (7th Cir. 2019) (Barrett,
J., concurring) (emphasis added). Numerous founding
era statutes restricted or regulated public-places carry.
This case thus presents the precise opposite interpretive
issue from Heller I, where no colony-wide or state-wide
founding era statute regulated possession of handguns in
the home. See Heller I, 554 U.S. at 631-32, 634.
In Part I infra, amici show that the historical
boundar ies that have been traditionally laid out
throughout history establish the constitutional limitations
on the Second Amendment’s right to “bear arms.” A

3
cardinal textualist interpretive principle is that limits are
as important as purposes in defining rights. E.g., United
States v. Rodriguez, 480 U.S. 522, 525-26 (1987) (per
curiam). Petitioners jettison this fundamental principle
with their boundary-less and boundless argument that
because one purpose of the Second Amendment is to allow
for self-defense, the right to carry loaded guns should
extend to all public places “whenever and wherever”
there could arise an occasion for defense of self. Pet.
Br. at 29-30. As then-Judge Kavanaugh explained in
Heller II, in the Second Amendment, “the right” itself
embodied a pre-existing “balance” between self-defense
and “public safety.” 670 F.3d at 1271 (Kavanaugh, J.,
dissenting) (emphasis added). The purpose of self-defense,
by itself, no more defines the historical boundaries of the
right embodied in the Second Amendment than does the
purpose of public safety, by itself. Rather, under a historyand-tradition test, the historical understanding of those
boundaries determines whether legislative restrictions
on carrying loaded guns in public places are permissible.
In Part II infra, amici show that, as part of the
centuries of historical support, the founding era gun-carry
statutory restrictions make affirmance all but required.
These founding era statutes establish that, as originally
understood, “the right” to carry loaded guns either
concealed or openly, in public and in the vast majority of
public places, was not only limitable, but often limited, by
the government.
The writings of some 19th-century lower court judges
and commentators decades after 1791 do not, and must
not be allowed to, supersede the democratic judgments
and decisions embodied in these founding era statutory

4
restrictions. Moreover, as this Court itself acknowledged
in Heller I, “the majority of the 19th-century courts to
consider the question held that prohibitions on carrying
concealed weapons were lawful under the Second
Amendment or state analogues.” Heller I, 554 U.S. at 626
(citing courts and commentators).
In Part III, amici show that petitioners would
improperly replace the leg islatures, which have
traditionally struck the balance between the right of
self-defense and the need for public safety to determine
the constitutionally permissible limits on the public carry
of handguns, with the federal courts, to which petitioners
would accord new, exclusive, and unjustified power. Today,
neither this Court, nor any other federal court, has the
authority to curtail or prevent legislatures from choosing
a historically-rooted option for reducing the occurrence of,
and the harms caused by, gun violence in public. Consider
how, for example, statutory restrictions in the District of
Columbia on public-places carry reduced the violence and
bloodshed on January 6, 2021. Many riot defendants have
since said they came to the District of Columbia aware of
the District’s gun laws, and accordingly left their guns at
home. Petitioners’ “whenever and wherever” approach,
Pet. Br. at 29-30, would invalidate the existing statutes
that have protected and continue to protect the Nation’s
seat of government by restricting the carrying of loaded
guns on the streets of Washington, D.C.
Likewise, the absolutist interpretation of the Second
Amendment urged by petitioners would invalidate myriad
state laws in almost all of the states that are amici for
petitioners themselves. The laws in those states restrict
concealed and/or open carry in dozens of locations open to

5
the public. These multiple-location restrictions extend to
everything from parks, to businesses open to the public,
to religious houses of worship.
Under a history-and-tradition test, it would be
virtually impossible to distinguish between laws with
multiple-location restrictions and New York’s “proper
cause” laws. Both satisfy the history-and-tradition test
because both are lineal descendants of the even broader
founding era statutory restrictions, or neither does. To
distinguish between the two kinds of statutes would
require junking the history-and-tradition test altogether,
after which the Court would be forced to resort to judicial
balancing for each of the broad variations of public-places
carry location restrictions now extant in virtually every
state.
Wading through that thicket would take decades and,
in the end, inevitably be unprincipled. Instead, based on
the broad founding era statutory restrictions and the
centuries-old unbroken history and tradition of publiccarry restrictions, the Court should sustain both “[p]roper
cause” laws and laws with multiple-location restrictions.
ARGUMENT
I.

HISTORICA L BOU N DA RIES IN HERE IN
THE SECOND AMENDMENT’S RIGHT TO
“BEAR ARMS.”

Petitioners devote much space to two arguments that
provide neither textual nor historical justification to ignore
the historical boundaries of the right to carry loaded
guns in public. The proper and historical limitations on

6
the Second Amendment right are evident in the relevant
founding era statutory restrictions on public-places carry
discussed infra in Part II.A.
A.

As the Second Amendment Allows, New York’s
Laws Impose Limits on Carrying Loaded Guns
Outside the Home.

“Like most rights, the right secured by the Second
Amendment is not unlimited.” Heller I, 554 U.S. at
626. Petitioners repeatedly contend, however, that New
York denies the right to “bear” arms because it “totally
bans” carrying guns “at all” and “anywhere” outside the
home. Pet. Br. at 40-41 (internal quotations omitted), 45
(emphasis in original), 47-48. This hyperbolic assertion is
simply incorrect. As respondents have documented, New
York extends the right to carry loaded guns to various
places outside the home, but just not to all places outside
the home.
To start, as respondents have demonstrated, New
York routinely grants licenses to carry loaded guns to
hunt, learn, practice, or engage in sport at ranges, and
for owners and staff to exercise self-defense at their
businesses. Petitioners admit that New Yorkers, including
the individual petitioners, are routinely granted licenses
to carry guns “outside the home for hunting and target
practice.” Pet. Br. at 18-19, 43 (emphasis added). The
licenses of individual petitioners also expressly allow
“concealed-carry for purposes of off road back country,
outdoor activities similar to hunting, for example, fishing,
hiking and camping.” J.A. 41, 114. And petitioner Koch was
licensed “to carry to and from work.” J.A. 114.

7
In addition to the above routine licensing of publicplace carry in many places outside the home, respondents
have demonstrated that New York provides for gun
owners to obtain unrestricted licenses to carry guns in
public places generally, upon a showing of “proper cause.”
Accordingly, petitioners’ “total ban” strawman is just that,
a strawman.
B. This Court Should Not Reset the Historical
Bou nd a r ie s Emb o d ie d i n t he S e c ond
Amendment Based Exclusively on the Purpose
of Self-Defense Because Those Boundaries Are
the Product of the Historical and Traditional
Balance Between Self-Defense and Public
Safety.
Petitioners contend that the scope of the Second
Amendment right to carry loaded guns is essentially
boundless – extending to public places “whenever and
wherever” an occasion for self-defense may arise. Pet Br.
at 29-30 (emphasis added). But, as Justice Scalia wrote in
concurring in McDonald v. City of Chicago, 561 U.S. 742
(2010), “traditional restrictions go to show the scope of
the right . . . .” Id. at 802 (Scalia, J., concurring) (emphasis
added). Accordingly, although one “purpose” of the Second
Amendment is to aid in self-defense, Pet. Br. at 22-23,
there are other purposes as well, including public safety.
It cannot be gainsaid that no single purpose dictates how
far and to which public places the right to carry loaded
guns extends outside the home.
Textualist principles of statutory construction also
properly apply to interpret the Second Amendment’s
text. See Heller I, 554 U.S. at 578. One such fundamental

8
principle is that no legislative enactment “pursues its
purposes at all costs. Deciding what competing values will
or will not be sacrificed to the achievement of a particular
objective is the very essence of legislative choice – and
it frustrates rather than effectuates legislative intent
simplistically to assume that whatever furthers the [law’s]
primary objective must be the law.” Rodriguez v. United
States, 480 U.S. 522, 525-26 (1987) (per curiam) (emphasis
in original).
Here, “the Second Amendment . . . codified a preexisting right.” Heller I, 554 U.S. at 592 (emphasis in
original). As then-Judge Kavanaugh explained in Heller II,
“the scope of the Second Amendment right” embodies and
“maintain[s] the balance historically and traditionally
struck in the United States between public safety and the
individual right to keep [and bear] arms . . . .” 670 F.3d
at 1271 (emphasis added). Under a history-and-tradition
test, the boundaries of the Second Amendment right are
governed by “the historical understanding of the scope of
the right,” id. at 1280 (Kavanaugh, J., dissenting), not by
contemporary explication of but one side of that balance
that has been struck historically.
It would violate neutral principles of adjudication to
allow the single purpose of self-defense completely to
override the other purposes of the Second Amendment,
such as public safety, which have also been carefully
weighed together with self-defense for over two centuries
in setting the historical boundaries of “the right.” As
Justice Scalia and Bryan Garner wrote: “The most
destructive (and most alluring) feature of purposivism is
its manipulability.” A. Scalia & B. Garner, Reading Law
18 (2012).

9
Petitioners both misread and overread Heller I’s
reliance upon the Second Amendment’s purpose of
self-defense, in any event. Heller I relied upon the selfdefense purpose of the Second Amendment only to show
“that the Second Amendment conferred an individual
right to keep and bear arms.” 554 U.S. at 595 (emphasis
added). Immediately thereafter, Heller I was at pains to
emphasize, as if in anticipation of petitioners’ argument,
that “[o]f course [that] right was not unlimited . . . . Thus,
we do not read the Second Amendment to protect the right
of citizens to carry arms for any sort of confrontation.”
Id. (emphasis in original). Heller I focuses on limitations
on the Second Amendment right in Part III of its opinion,
which does not mention self-defense. See id. at 62628. Instead, Heller I’s Part III approvingly cites the
19 th-century authorities that “held that prohibitions on
carrying concealed weapons were lawful under the Second
Amendment or state analogues.” Id. at 626.
Heller I also flatly stated that “schools and government
buildings” are outside the boundaries of the right to bear
arms. 554 U.S. at 626. This despite the fact that, as history
confirmed before (and after) the ratification of the Second
Amendment, the occasion for self-defense can often arise
in schools and government buildings. 2 Consequently,
boundlessly extending the right to carry loaded guns to
all public places “whenever and wherever,” Pet. Br. at 30,
an occasion for self-defense could arise outside the home,
as petitioners urge, is not merely inconsistent with, but
contradicts, the historical and traditional boundaries of
2. See “History of School Shootings in the United States,”
available at https://www.k12academics.com/school-shootings/
history-school-shootings-united-states.

10
the right to bear arms, as well as the boundaries already
defined by this Court.
II. THE M A N Y FOU N DING ERA STATU TES
PROVIDE THE BEST HISTORICAL SUPPORT
POSSIBLE FOR LEGISLATIVE LIMITS ON
PUBLIC CARRY.
Then-Judge Kavanaugh himself described how
“governments appear to have more flexibility and power to
impose gun regulations under a test based on text, history,
and tradition than they would under strict scrutiny.”
Heller II, 670 F.3d at 1274 (emphasis in original). Among
the examples that then-Judge Kavanaugh used to prove
“the point” was that “the Court in Heller [I] affirmatively
approved a slew of gun laws,” including “concealed-carry
laws . . . . The Court approved them based on a history-and
tradition-based test . . . ” Id. at 1278 (emphasis in original);
accord Heller I, 554 U.S. at 626 (citing cases, Kent, and
an edition of Blackstone).
The history-and-tradition interpretive approach owes
its legitimacy to its foundational reliance on the “history
formed by democratic decisions,” McDonald, 561 U.S. at
805 (Scalia, J., concurring) (emphasis added), including
those democratic decisions embodied in statutes. Despite
this, petitioners tellingly limit their argument’s discussion
of founding era state statutes to a single incomplete and
misleading paragraph. See Pet. Br. at 31-32.
As has been demonstrated by respondents and other
amici in support of respondents, there are centuries of
state statutes and other history supporting restrictions on
public-places carry. This amici brief focuses on founding

11
era statutes because, as then-Judge Barrett wrote, “[t]he
best historical support for a legislative power to” restrict
gun possession “would be founding-era laws explicitly
imposing – or explicitly authorizing the legislature to
impose – such a ban.” Kanter, 919 F.3d at 454 (Barrett,
J., concurring) (emphasis added). Here, the founding era
statutory restrictions provide the single “best historical
support” for New York’s restrictions on concealed-carry
and open carry in most public places.
A.

Each of Three Categories of Founding Era
Statutes Shows That Legislatures Regulated
the Carrying of Loaded Guns in Most Public
Places.

The founding era statutes show that the carrying of
loaded guns in public was a matter committed to “the
arena of public debate and legislative action,” Washington
v. Glucksberg, 521 U.S. 702, 720 (1996). To be sure, many
in the founding generation understood the value of guns
for self-defense. Self-defense is indisputably one purpose
of the Second Amendment. But that is not the issue before
the Court. The issue is whether the founding generation
understood the matter of carrying loaded guns in public
places as having been removed from the arena for public
debate by “the right” to bear arms embodied in the Second
Amendment. Petitioners argue they did. The founding era
statutory restrictions show that the founding generation
understood the very opposite.
There were three basic variations of founding era
statutes that restricted or regulated the carrying of guns
in public places. First, statutes in three jurisdictions
categorically restricted both concealed and open carry

12
of guns in public places. See 1686 N.J. Laws 289, 290,
at 9 (barring “privately to wear any pocket pistol” and
providing that “no planter shall ride or go armed with
sword, pistol or dagger”) (emphasis added); 1699 N.H.
Laws 1 (“or any other who shall go armed offensively”);
1792 N.C. Laws 60, ch. 3 (no person may “go nor ride
armed by night or by day, in fairs, markets, nor in the
presence of the King’s Justices, or other ministers, nor
in no parts elsewhere”) (emphasis added). By themselves,
these founding era statutes restricting public-places carry
distinguish this case from Heller I. In the founding era,
as Heller I observed, no colony-wide or state-wide statute
restricted individual possession of guns in the home. See
Heller I, 554 U.S. at 634 (it was a “false proposition” in
that case that there were “somewhat similar restrictions
in the founding period”); see also id. at 631-32 (at most “a
single law, in effect in a single city” restricted possession
of handguns in the home).
Second, other founding era statutes in three other
jurisdictions also restricted public-places carry. See, e.g.,
1786 Va. Laws 33, ch. 21 (“nor go nor ride armed by night
nor by day, in fairs or markets, or in other places, in terror
of the Country”) (emphasis added); 1795 Mass. Acts 436,
ch. 2 (“ride or go armed offensively, to the fear or terror
of the good citizens of this Commonwealth”) (emphasis
added); 1692 Mass. Laws No. 6, at 11-12 (“ride or go armed
offensively before their Majestic Justices, or their Officers
or Ministers doing their Office, or elsewhere, by Night or
day, in Fear or Affray of their Majesties Liege People”)
(emphasis added); 1801 Tenn. 259, 260-61, ch. 22 (“if any
persons shall publicly ride or go armed to the terror of
the people, or privately carry any dirk, large knife, pistol
or any other dangerous weapon, to the fear or terror of
any person”) (emphasis added).

13
And it was unquestionably the mere carrying of the
gun in a public place that was proscribed by these statutes
– “ride or go armed” or “privately carry.” These statutes
did not even address the use of the gun. The only arguable
additional element of these offenses was the subjective fear
or terror of any person – whether intended by the person
carrying the gun or not. 3 Of course, if petitioners prevail
in this case, many Americans who have lived all their lives
in states without public-places carry will find themselves
in “fear” and “terrified.” Fearful, and many terrified, both
by seeing people around them openly carrying loaded
guns and by knowing that there is likely a dramatically
greater number of persons surrounding them who will be
carrying concealed weapons just in case there is a violent
outbreak, to which they will respond with gunfire. This
specter promises that America and Americans would “live
on edge” from now on, wherever they go. The legislatures
that enacted this second variation of founding era
statutory restrictions effectively anticipated the absolutist
argument made by petitioners, and legislatively responded
that the limits of the right to bear arms of course allow
for restrictions on public-places carry that would cause
fear or terror in others.
3. Pet. Br. at 7 miscites James Wilson. Wilson said the
common-law crime of “an affray” can occur “where a man arms
himself with dangerous and unusual weapons, in such a manner,
as will naturally diffuse a terrour among the people.” Collected
Works of James Wilson, Vol. 2, Ch. IV, at 1137. This is irrelevant as
none of the seven founding era statutes discussed above required
an affray. The 1692 Massachusetts statute restricts public carry
“in fear or affray” of the people. 1692 Mass. Laws No. 6, at 11-12
(emphasis added). The 1699 New Hampshire statute punished
“affrayers . . . or any other who shall go armed offensively.”
1699 N. H. Laws 1 (emphasis added). Wilson did not address any
founding era statute.

14
This limitation, too, belies petitioners’ arguments
that there was a historical right to carry loaded guns
“whenever and wherever,” Pet. Br. at 29-30, in public.
When an individual is understood to have a “right” to
engage in an activity in public, statutes do not prohibit
engaging in that activity in public because of another’s
expected or actual fearful reaction. For example, no
founding era statute precluded political speech in public
based on what was expected to be, or actually were, the
viewers’ or listeners’ fearful reactions.
Petitioners do not cite a single item of persuasive
contrary founding era evidence that counters the
historical support for public-carry restrictions provided by
the founding era statutes. They do not cite anyone or any
source that contemporaneously opposed or even criticized
any founding era statutory restriction as infringing
the right to carry. Neither do they cite any proponent
or opponent stating that the Second Amendment was
codifying a right that would nullify any existing or prior
statutory restriction in any state or city. Nor do they cite
a state constitutional provision from the founding era
that nullified such a restriction. This silence in the face of
these founding era proscriptions and limitations confirms
that carrying loaded guns in most public places was not
a matter of right, but rather was a matter intended by
the Framers to be left for debate and decision within the
legislative arena.
New York’s current statute is a lineal descendant of the
first two variations of founding era statutory restrictions
cited supra. Although today’s “exclusions need not mirror
limits that were on the books in 1791,” Kanter, 919 F.3d
at 465 (Barrett, J., dissenting) (internal quotations and

15
citation omitted), New York’s statute is less restrictive
than the founding era statutory restrictions, by allowing
anyone to obtain a license to carry loaded guns in public,
upon a showing of “proper cause.”
Nor is New York’s statute unconstitutional under
the Second Amendment because it delegates “broad
discretion,” Pet. Br. at 42, to the State’s administrative
officials to decide when “proper cause” has been shown.
“Of course, in ordinary cases, the distribution of powers
among the branches of a State’s government raises no
questions of federal constitutional law . . . .” Bush v. Gore,
531 U.S. 98, 112 (2000) (Rehnquist, C.J., concurring,
joined by Scalia & Thomas, JJ.). In particular, the Second
Amendment, like the First, does not address the roles
of the branches of a State’s government in affording
“individual liberties more expansive than those conferred
by the Federal Constitution,” Pruneyard Shopping Center
v. Robbins, 447 U.S. 74, 81 (1980) (emphasis added).
As petitioners admit, the First Amendment cases they
cite apply only to the use of administrative discretion to
restrict “constitutionally protected activity.” Pet. Br. at 42;
see Lakewood v. Plain Dealer Publishing Co., 486 U.S. 750,
763-64 (1988) (“unbridled discretion” enabled newspaper
distribution decisions “based on the content of the speech
or viewpoint of the speaker”). The founding era statutory
restrictions establish, however, that carrying loaded
guns in public places is not a “constitutionally protected
activity.” See supra, at 11-14. Petitioners do not allege a
single instance where a New York administrative official
made a concealed-carry decision based on anyone’s speech,
or any other constitutionally-infirm discrimination. See
Pet. Br. at 16-20.

16
Petitioners also misplace reliance on the third
category of founding era statutes, which compelled
carrying guns in some public places. See Pet. Br. at 28.
The import of these various compulsory-carry statutes
is precisely the opposite of what petitioners contend. The
Second Amendment embodies a right that “is exercised
individually.” Heller I, 554 U.S. at 579-80 (emphasis
added). As First Amendment jurisprudence teaches,
government compulsion is antithetical to a right that is
exercised individually. See Janus v. American Federation
of State, County, & Mun. Employees, Council 31, 138
S. Ct. 2448, 2463-64 (2018). Thus, that these handful of
statutes compelled the carrying of guns in some public
places is not evidence that the Founders believed the
Second Amendment created an individual right to carry
guns in public. Rather, it is affirmative evidence from the
founding period that the carrying of guns in public places
was not an individual right, but rather was a matter left
for debate and decision in the legislative arena.
There may be other gun regulations where, as in
Heller I, current legislative restrictions have no founding
era statutory support. See New York State Rifle & Pistol
Ass’n, Inc. v. City of New York, 140 S. Ct. 1525, 1541 (2020)
(Alito, J., dissenting, joined by Thomas & Gorsuch, JJ.)
(relying on absence of “laws in force around the time of
the adoption of the Second Amendment that prevented
gun owners from practicing outside city limits”). Because
of the panoply of founding era statutes that did regulate
and restrict public-places carry of loaded guns, however,
New York’s “proper cause” law has founding era support.

17
B. Scattered and Selected 19th-Century Authorities
and Commentary Cannot Change the Scope of
the Right to Carry Guns in Public.
Petitioners all but ignore the founding era statutory
restrictions on, and prohibitions of, public-places carry,
and instead urge the Court to base reversal of the lower
court’s decision on cherry-picked 19 th-century authorities
and commentary. Petitioners cite state court opinions
that do not begin until 1822 – 31 years after the Second
Amendment’s ratification.4 None of these cited opinions of
course constitutes a democratic act of the people or their
legislative representatives. Accordingly, these judicial
opinions are not “democratic decisions,” McDonald, 561
U.S. at 805 (Scalia, J., concurring), and cannot displace
the original understanding evidenced by the democratic
decisions of the founding era statutes.
Further, the hyperbole in the opinions cited by
petitioners shows that these opinions reflect merely the
personal prescriptions of what the law should be by the
judges who authored these opinions, not what the law
was at the founding and therefore is today. For example,
the majority opinion in Bliss v. Commonwealth, 12 Ky.
90 (1822), asserts that “the liberty of the citizens to bear
arms” has “no limits” at all, id. at 92 – a position that
this Court rejected in Heller I, see 554 U.S. at 626. The
hyperbole in Bliss even analogized a concealed-carry ban
4. In U.S. Term Limits, Inc. v. Thornton, four justices
stated that even Joseph Story’s 1833 treatise was not evidence of
“the original understanding” because “he was not a member of
the Founding generation” and too much time had passed “after
the framing.” 514 U.S. 779, 856 (1995) (Thomas, J., joined by
Rehnquist, C.J., and O’Connor & Scalia, JJ., dissenting).

18
to a hypothetical statute providing that soldiers, “when
in conflict with an enemy, [would] not [be] allowed the use
of bayonets.” Id. At the same time that it indulged such
hyperbole, Bliss did not even mention any of the actual
founding era statutory restrictions. See id. Bliss is hardly
persuasive authority, if authority at all, for petitioners’
absolutist interpretation.
The legal treatises cited by petitioners contain similar
personal opinions by their authors and likewise ignore the
founding era statutory restrictions. See, e.g., St. George
Tucker, Blackstone’s Commentaries app’x 19 (William
Young Birch & Abraham Small, eds. 1803) (relying on
the “law of nature” and questioning whether English
restrictions on public-places carry “ought” to apply in
America) (emphasis added). No court should permit the
unenacted policy preferences of unelected judges and
commentators from any era to supersede the enacted
democratic decisions reflected in the founding era statutes.
In any event, Heller I has already confirmed that
“the majority of the 19th-century courts to consider the
question held that prohibitions on carrying concealed
weapons were lawful under the Second Amendment or
state analogues.” 554 U.S. at 626 (citing cases, and Kent
and Blackstone treatises). The same is true concerning
cases upholding statutory prohibitions on open carry. See
Young v. Hawaii, 992 F.3d 765, 802-07 (9 th Cir. 2021) (en
banc) (per Bybee, J.). And to whatever extent the personal
views of commentators are relevant on the question of the
founding era’s original understanding, the commentaries
of Blackstone, Coke, and Carpenter all approved statutory
restrictions on public-places carry. See id. at 792-93
(reviewing treatises).

19
The Fourteenth A mendment incorporated the
Second Amendment as applicable to the States. But the
Fourteenth Amendment did not change the meaning or
scope of the Second Amendment. See McDonald, 561 U.S.
at 767-68. Nonetheless, petitioners misplace reliance on
federal 1866 and 1871 statutes and their legislative history,
as well. Pet. Br. at 36-37. These statutes protected the
right to bear arms against racial discrimination, 14 Stat.
at 176-77, and imposed criminal and civil liability on those
who deprived others of equal protection, and privileges
and immunities, including on public highways. 17 Stat.
at 13-14. Neither statute, nor either’s legislative history,
even addresses the extent to which the right to bear arms
extended outside the home to public places.
III. PETITIONERS WOULD HAVE THIS COURT
USURP THE CONSTITUTIONAL ROLE OF THE
LEGISLATURES.
A.

Restricting Loaded Guns in Public Places Is a
Vital, Historically-Rooted, Legislative Option
for Minimizing Gun Violence on America’s
Streets and in Public Places.

Petitioners contend that it violates the Second
Amendment to restrict “law-abiding individuals” from
carrying loaded guns on the streets and in other public
places. Pet. Br. at 41-42. But the historical boundaries
of the Second Amendment, most notably including those
boundaries apparent in the founding era statutory
restrictions on public-places carry, have traditionally
applied so as to restrict law-abiding citizens from carrying
guns in public.

20
This is also shown by other historical boundaries
approved by Heller I, such as in the prohibition on
“dangerous and unusual weapons.” 554 U.S. at 627
(quotations and citation omitted). Thus, not even lawabiding Americans have a Second Amendment right to
purchase machine guns. Even as to ordinary weapons,
law-abiding citizens are subject to “laws imposing
conditions and qualifications on the commercial sale of
arms.” Id. at 626-27.
In any event, no one – including a legislature or a court
– can predict that law-abiding individuals would remain
so were this Court to sanction the public carry of loaded
guns wherever and whenever the need for self-defense
might arise. One consequence of such a holding by this
Court would be that countless more law-abiding citizens
would begin to carry guns on our streets and in our public
places for the first time. Today, as in the past, much gun
violence is spontaneous, occurring when passions run
high in settings from the political, to bars and sporting
events, to road rage, to recent impassioned and angry
disagreements over whether we can be required to wear
masks and quarantine. The law-abiding can become the
law-less in an instant, in the impassioned moments of
everyday disagreements, as we see every day of the week.
It has historically been the role of the legislatures,
not the courts, to determine which laws best reduce the
incidences of violence and crime. One of the most illustrative
examples have been the vital, historically-rooted legislative
decisions that have curbed political violence by restricting
the carrying of loaded guns in public places. See, e.g.,
Armed Assembly: Guns, Demonstrations, and Political
Violence, at 3 (August 2021) (“Armed Assembly”), https://

21
acleddata.com/acleddatanew/wp-content/uploads/2021/08/
Repor t _ A r med-A ssembly _ ACLED_ Ever y t ow n _
August2021.pdf (unarmed demonstrations are less than
one-fifth as likely to involve violence and one-fortieth as
likely to involve fatalities as armed demonstrations); id.
at 7 (demonstrations are less than one-fifth as likely to
be armed in states that restrict open carry than in states
that do not).
Perhaps the most powerful example of such legislative
decisions is the District of Columbia’s public-places carry
restrictions, which indisputably prevented even more
bloodshed and doubtless saved many lives during the
January 6, 2021, insurrection in the Nation’s Capital.
Indeed, the statutes that make public-places carry illegal
in the streets of the District of Columbia 5 may well have
prevented a massacre that day. The D.C. Metropolitan
Police Chief had publicly warned protesters on January
4, 2021, that carrying guns in the District “w[ould]
not be tolerated,” and in court afterward many “riot
defendants . . . said they refrained from bringing firearms
5. Under home-rule delegation, in the District of Columbia
in public areas: (1) Open carry is illegal throughout the District.
D.C. Code § 22-4504.1. (2) Only persons with a District of Columbia
license, not a license from another jurisdiction, may carry
concealed weapons. D.C. Code § 22-4504. (3) Even District license
holders are restricted from carrying concealed guns in multiple
locations, including (a) on the broadly-defined Capitol Grounds,
and (b) within 1,000 feet of “a demonstration in a public space,” (c)
on the streets near the White House, (d) on public transit, and (e)
“[a]ny prohibited location or circumstance that the Chief [of Police]
determines by rule.” D.C. Code § 7-2509.07. Carrying a loaded gun
on the broadly-defined Capitol Grounds is also a federal crime. 40
U.S.C. §§ 5104(e)(1)(A)(i); 5102(a).

22
to the city that day [January 6, 2021], citing D.C.’s strict
gun laws.”6
Many of the January 6, 2021 protesters who would
become rioters that day did not come to Washington
planning to break the law, but incited to do so, many did.
“[M]ost – even some at the forefront of the action – were
ardent, but disorganized Trump supporters swept up in
the moment and acting individually.” “Inside the Capitol
Riot: An Exclusive Video Investigation,” New York Times
(June 30, 2021), https://www.nytimes.com/2021/06/30/
us/jan-6-capitol-attack-takeaways.html. However, “[o]n
several occasions, a calculated move by a more organized
actor – for example, a Proud Boy identifying a weakness
in the police line near a set of stairs – set off a surge by
the mob.” Id. As a Proud Boy leader bragged, his group
had gotten “the normies all riled up.” Id.
There can be little doubt that if petitioners’ boundaryless approach to carrying loaded guns in public prevails,
demagogues and extremists will have opportunity after
opportunity in the years ahead to “rile-up” normally lawabiding individuals who will arrive on the streets legally
armed with loaded guns, only to find themselves incited
in the moment to use those guns illegally during their
political protests, whether in self-defense or otherwise.
6. “Handguns, crowbars, Tasers and tomahawk axes:
Dozens of Capitol rioters wielded ‘deadly or dangerous’ weapons,
prosecutors say,” CBS News (May 27, 2021), https://www.cbsnews.
com/news/capitol-riot-weapons-deadly-dangerous/; “Leave your
guns at home, Washington police warn pro-Trump rally-goers,”
Reuters (Jan. 4, 2021), https://www.reuters.com/article/us-usaelection-protests/leave-your-guns-at-home-washington-policewarn-pro-trump-rally-goers-idUSKBN2992JI (emphasis added).

23
This is assuredly not what the Framers of the Second
Amendment intended.
Consider, as well, the exceedingly greater difficulties
the police and the national guard would have faced if a
substantial number of the January 6, 2021, protesters had
been armed with loaded guns. And imagine the difficulties
law enforcement would face if future protesters – whether
motivated by conspiracy theories, police shootings, or
anything else – arrived on the streets legally armed with
loaded guns.
Adopting petitioners’ “whenever and wherever” right
to carry would be to throw gasoline on the fires of our
Nation’s future political conflicts. Although the January
6, 2021, attack on the Capitol itself was unprecedented,
political violence in our streets unfortunately is not. See,
e.g., Armed Assembly, at 3 (from January 2020 through
June 2021, armed protesters participated in more than
560 public demonstrations, often resulting in violence).
Indeed, elected officials and others have continued to
make statements long after January 6, 2021 that threaten
more political violence.7 An American Enterprise Institute
poll, taken after January 6, 2021, shows that 29% of all
Americans agreed that “[i]f elected leaders will not
7. Rep. Madison Cawthorn recently stated: “[I]f our election
systems continued to be rigged and continue to be stolen, then
it’s going to lead to one place – and it’s bloodshed.” Somnez,
F., “Rep. Madison Cawthorn falsely suggests elections are
‘rigged’, says there will be ‘bloodshed’ if system continues on its
path, Washington Post (Aug. 30, 2021); see also “Gaetz: Second
Amendment about waging ‘armed rebellion’ if necessary,” New
York Post (May 27, 2021).

24
protect America, the people must do it themselves even if it
requires violent actions.”8 As the Deputy Attorney General
wrote to all federal prosecutors and the FBI on June 25,
2021, “[i]n recent months there has been a significant
increase in the threat of violence against Americans who
administer free and fair elections throughout our Nation.”
Https://www.justice.gov/opa/press-release/file/1406331/
download.
Some amici for petitioners even advocate for a country
where protesters armed with guns take to the streets both
to confront their armed political opponents and to threaten
and, if necessary, violently stop “the rulers of the nation”
who are “abusing their powers.” See, e.g., Brief Amicus
Curiae of Black Guns Matter in Support of Petitioners, at
11, 13; Brief Amicus Curiae of Gun Owners of America,
Inc., et al., in Support of Petitioners (“Gun Owners Br.”),
at 15, 17. Can this possibly be what the Second Amendment
wrought? Of course it is not.
As Justice Jackson wrote: “The choice is not between
order and liberty. It is between liberty with order and
anarchy without either.” Terminiello v. Chicago, 337 U.S.
1, 37 (1949) (Jackson, J., joined by Burton, J., dissenting).
Demagogues want “people [to] lose faith in the democratic
process when they see public authority flouted . . . .” Id. at
24. Curtailing political and other public violence requires
8. “After the ballots are counted: Conspiracies, political
violence and American exceptionalism, Findings from the January
2021 American Perspectives Survey,” Daniel A. Cox (Feb. 11,
2011), publicly available at https://www.americansurveycenter.
org/research/after-the-ballots-are-counted-conspiracies-politicalviolence-and-american-exceptionalism/#Political_Violence_and_
Democracy.

25
judicial support for “the authority of local governments
which represent the free choice of democratic and lawabiding elements, of all shades of opinion . . . who, whatever
their differences, submit them to free elections which
register the results of their free discussion.” Id.
“The system of federalism established by our
Constitution provides a way for people with different
beliefs to live together in a single nation.” Obergefell
v. Hodges, 576 U.S. 644, 741 (2015) (Alito, J., joined by
Roberts, C.J., and Scalia and Thomas, JJ.). Different
legislatures, chosen by the people of different states, have
made different choices about whether having individuals
carry loaded guns on the streets and in other public places
promotes or inhibits our living together as a people. These
different choices, and the power to make them, were the
intendment of Our Federalism.
B. The Second Amendment Interpretation Urged
by Petitioners Would Either Invalidate the
Multiple-Location Restrictions On PublicPlaces Carry In Dozens of States Or Require
Decades of Case-By- Case, Location-ByLocation Judicial Balancing.
Under a properly applied history-and-tradition
analysis, a legislature has discretion to require “proper
cause” for a license to carry loaded guns in the streets
and in most public places, as New York has, as this brief
demonstrates. Another permissible legislative option
is to expressly restrict the carrying of loaded guns
in multiple, named locations. Both options are lineal
descendants of the legislative authority to restrict publicplaces carry reflected in the broader restrictions that

26
were imposed in the founding era statutes. See supra,
at 11-15. Under petitioners’ “whenever and wherever”
approach, Pet. Br. at 29-30, however, both New York’s
laws and the multiple-location restrictions in dozens of
states would fall.
Most states – including almost all of the states that are
amici for petitioners – that generally issue licenses for, or
otherwise allow, concealed and/or open carry, nonetheless
have multiple-location restrictions on such carry that
go far beyond government buildings and schools. For
example, Missouri, a lead amicus for petitioners, has 17
statutory subsections that restrict concealed carry. Mo.
Rev. Stat. 571.107.1. The locations subject to Missouri’s
restrictions include airports, child care facilities, bars,
riverboat casinos, amusement parks, churches and other
places of religious worship, all privately-owned locations
including businesses that post a notice, sports arenas, and
within 25 feet of a polling place. Id.
Other states that are amici for petitioners also
have varying multiple-location restrictions on concealed
and/or open carry. These varying restrictions include
restrictions similar to Missouri’s, and also restrictions on
carrying loaded guns on public transit, in parks, financial
institutions, health care facilities, mental health facilities,
port areas, theaters, restaurants, inns and hotels, student
residence halls, bingo halls, and gambling facilities; at a
racetrack, “any athletic event,” and any outdoor music
festival; at or near demonstrations, protests, and licensed
public gatherings; within 1,000 feet of a place of execution,
1,000 feet of a school, and 150 feet of a polling place;

27
“on a public street;” 9 and more. Giffords Law Center to
Prevent Gun Violence, https://giffords.org/lawcenter/gunlaws/policy-areas/guns-in-public/location-restrictions/
(cataloging restrictions by state).
The many state laws with multiple-location restrictions
would be unconstitutional if this Court were to agree
with petitioners that there is a Second Amendment right
to carry loaded guns “whenever and wherever” there
might arise the need for self-defense. Pet. Br. at 30; see
also Brief of Amicus Curiae Madison County Society
Foundation, Inc. in Support of Petitioners, at 10-19
(arguing that the “vast majority” of location restrictions
are unconstitutional, including restrictions for churches,
schools, and post offices); accord Brief of Firearms
Policy Coalition, et al., as Amici Curiae Supporting
Petitioners, at 27. Petitioners’ approach also would render
unconstitutional the federal statutory location restriction
that bans the carrying of loaded guns on airplanes. See
49 U.S.C. § 46505. This ban is constitutional precisely
because it is, like New York’s law, a lineal descendant of
the broader founding era statutory restrictions. Supra,
at 11-15.
Ultimately, therefore, petitioners’ substitution of the
single boundary-less purpose of self-defense for the balance
of self-defense and public safety struck in the founding
era statutes, as well as historically and traditionally in
the law since before the founding and to the present day,
would invalidate scores of laws throughout the nation that
9. Utah precludes open carry “on a public street” if a round
is in the gun’s firing position. Utah Code §§ 76-10-502, 76-10505(1)(b).

28
restrict carrying loaded guns in public places. This would
belie then-Judge Kavanaugh’s statement that Heller I did
not “cause major repercussions throughout the Nation.”
Heller II, 670 F.3d at 1270 n.3 (Kavanaugh, J., dissenting).
Perhaps aware of the boundlessness of their view
of the Second Amendment, petitioners suggest that the
Court should leave for another day whether the Second
Amendment somehow allows restrictions of carrying
loaded guns in an unnamed, few “sensitive places or special
circumstances.” Pet. Br. at 45-46. However, an exception for
any sensitive place or special circumstance would invariably
require a judicial balancing test, to be applied public
location by public location. Resort to judicial balancing of
the twin concerns of the Second Amendment – self-defense
and public safety – would both contradict petitioners’
solitary focus on self-defense and require renouncement of
the use of history, tradition, and original understanding as
the proper tools for interpreting the Second Amendment.
The fraught judicial balancing by the courts would
open a Pandora’s box of challenges to the constitutionality
of the many multiple-location restrictions discussed above,
at 26-27. Amici for petitioners already are previewing
what is inside that Pandora’s box, and it is not something
the Court should want. See, e.g., Brief of Amicus Curiae
The Independent Institute in Support of Petitioners
(arguing that this Court should (a) decide for each public
location, whether police protection is strong enough to
justify a location restriction, and (b) ultimately rule that
all location restrictions are unconstitutional except inside
government buildings, polling places, and airports – and
inside schools, but only for students).

29
The Court would struggle to divine some “judicial”
principle that would distinguish among the almost-infinite
number of public locations and then decide as to which
there is an unfettered right to carry a gun and as to which
there is not. For example, there are likely to be more
unarmed bystanders on a typical urban street at most
times of the day than in a typical bank, small business, or
house of worship, or, at many hours of the day, in a nearby
bar or restaurant. And political violence occurs more often
in the streets than in any of the other public locations
covered by the restrictions discussed above at 26-27.
The Court also would have to decide whether the
aggregate number and corresponding breadth of multiplelocation restrictions in a given state go too far and, if so,
somehow choose which among the too-many restrictions to
invalidate. The Court further would have to decide if and
where states could ban “groups” of individuals from carrying
loaded guns in public. The Brief of Amici Curiae Professors
of Second Amendment Law Supporting Petitioners, at 23,
already argues that “individuals and small groups ha[ve]
the unfettered right to carry.” (Emphasis added.)
On top of all this, the Court would have to resolve
challenges to location restrictions for public-places carry
of (a) more powerful guns, (b) high-capacity magazines,
and (c) armor-piercing bullets. The Brief of Amicus
Curiae George K. Young Supporting Petitioners already
argues that the right to carry in public places applies to
every gun, including AR-15 rifles, provided only that the
gun is not carried in a threatening manner or into a place
that is unusual for that specific gun. See also id. at 29
(conceding only that in some “areas it may be permissible
to prohibit carrying a long gun while wearing tactical
armor”); Gun Owners Br. at 26, 28-29 (right is to both open

30
and concealed-carry and includes “rifles and shotguns”).
In sum, the Court would be consigned to decades of caseby-case balancing for public-places carry restrictions for
myriad combinations of different public places, numbers
of carriers, guns, magazine capacities, and ammunitions.
The Court should not want to establish itself in this
way as the National Review Board for Public-Carry
Regulations. The Court recently declined under the guise
of the First Amendment to substitute judicial decision for
the traditional election districting powers of legislatures.
The caution of Rucho v. Common Cause, 139 S. Ct. 2484
(2019), applies equally here:
The expansion of judicial authority would not
be into just any area of controversy, but into
one of the most intensely partisan aspects of
American political life. That intervention would
be unlimited in scope and duration – it would
recur over and over again . . . . Consideration
of the impact of today’s ruling on democratic
principles cannot ignore the effect of the
unelected and politically unaccountable branch
of the Federal Government assuming such an
extraordinary and unprecedented role.
139 S. Ct. at 2507.
There is of course no reason for the Court to
establish itself as a de facto National Review Board
here, and there is every reason for it not to do so. There
is overwhelming and uncontradicted evidence that the
original understanding of the Second Amendment was
that there is not an absolute, unfettered right to carry
loaded guns in public -- an understanding that underpins

31
the centuries-old, unbroken history and tradition of
regulating the public-places carry of loaded firearms.
Both this original understanding and this history and
tradition of public-carry regulation of firearms contradict
petitioners’ claim to a right to carry guns in public
“wherever and whenever” the need for self-defense might
arise. The Court should rule to preserve and protect what
has forever been our system of governance under which
elected and accountable legislatures determine whether,
and if so, when and where to allow public-places carry.
This system of governance, which was intended by the
Framers, has worked exceedingly well before the founding
and for the over two and a quarter centuries since.
CONCLUSION
The Court should affirm.
Respectfully submitted,
Nancy A. Temple
K atten & Temple, Llp
209 South Lasalle Street,
Suite 950
Chicago, Illinois 60604

Richard D. Bernstein, Esq.
Counsel of Record
1875 k street, nw
Washington, DC 20006
(202) 303-1000
rbernsteinlaw@gmail.com

Counsel for Amici Curiae
September 13, 2021

APPENDIX

1a
Appendix
Appendix
LIST OF AMICI CURIAE*
J. Michael Luttig, Circuit Judge, United States Court
of Appeals, 1991-2006; Assistant Attorney General, Office
of Legal Counsel and Counselor to the Attorney General,
1990-1991; Assistant Counsel to the President, The White
House, 1980-1981.
Peter Keisler, Acting Attorney General, 2007;
Assistant Attorney General for the Civil Division, 20032007; Principal Deputy Associate Attorney General and
Acting Associate Attorney General, 2002-2003; Assistant
and Associate Counsel to the President, The White House,
1986-1988.
Carter Phillips, Assistant to the Solicitor General,
1981-1984.
Stuart M. Gerson, Acting Attorney General, 1993;
Assistant Attorney General for the Civil Division, 1989–
1993; Assistant United States Attorney for the District
of Columbia, 1972–1975.
Ch r i s ti ne To d d W h it m a n , A d m i n i st r at or,
Environmental Protection Agency, 2001–2003; Governor,
New Jersey, 1994–2001.

* The views expressed are solely those of the individual
amici, and for each amicus, reference to prior and current
positions is solely for identification purposes.

2a
Appendix
Lowell Weicker, Governor, Connecticut, 1991-1995;
United States Senator from Connecticut, 1971-1989;
Representative of the Fourth Congressional District of
Connecticut in the United States House of Representatives,
1969-1971.
Constance Morella, Representative of the Eighth
Congressional District of Maryland in the United States
House of Representatives, 1987- 2003; Permanent
Representative from the United States to the Organisation
for Economic Co-operation and Development, 2003-2007.
Christopher Shays, Representative of the Fourth
Congressional District of Connecticut in the United States
House of Representatives, 1987- 2009.
Donald Ayer, Deputy Attorney General 1989-1990;
Principal Deputy Solicitor General, 1986-88; United
States Attorney, Eastern District of California, 1982-1986;
Assistant United States Attorney, Northern District of
California, 1977-1979.
John Bellinger III, Legal Adviser to the Department
of State, 2005-2009; Senior Associate Counsel to the
President and Legal Adviser to the National Security
Council, The White House, 2001-2005.
Edward J. Larson, Counsel, Office of Educational
Research and Improvement, United States Department
of Education, 1986-1987; Associate Minority Counsel,
Committee on Education and Labor, United States House
of Representatives, 1983-1986; formerly University of

3a
Appendix
Georgia Law School Professor; currently Hugh & Hazel
Darling Chair in Law at Pepperdine University.
Trevor Potter, Commissioner, Federal Election
Commission, 1991-1995, Chairman, 1994; Assistant
General Counsel, FCC, 1984-1985; Attorney, United
States Justice Department, 1982-1984; currently,
President, Campaign Legal Center.
Alan Charles Raul, Associate Counsel to the
President, The White House, 1986-1988; General Counsel
of the Office of Management and Budget, 1988-1989;
General Counsel of the United States Department of
Agriculture, 1989-1993; Vice Chairman of the Privacy and
Civil Liberties Oversight Board, 2006-2008.
Paul Rosenzweig, Deputy Assistant Secretary for
Policy, Department of Homeland Security, 2005-2009;
Office of Independent Counsel, 1998-1999; United States
Department of Justice, 1986-1991; currently Professorial
Lecturer in Law, The George Washington University Law
School.
Robert Shanks, Deputy Assistant Attorney General,
Office of Legal Counsel, 1981-1984.
Stanley Twardy, United States Attorney for the
District of Connecticut, 1985–1991.
Richard Bernstein, Appointed by the United States
Supreme Court to argue in Carmell v. Texas, 529 U.S.
513, 515 (2000); Montgomery v.Louisiana, 136 S. Ct. 718,
725 (2016).

